APPENDIX
1. Opinions, Orders, Findings of Fact,
and Conclusions of Law, Whether Written
or Orally Given and Transcribed, Entered
in Conjunction with the Judgment
Sought to Be Reviewed.
a. California Supreme Court order denying review.
SUPREME COURT
FILED
FEB 10 2021
Jorge Navarrete Clerk Deputy
Court of Appeal, First Appellate District,
Division Two - No. A153135
S265914
IN THE SUPREME COURT OF CALIFORNIA
En Banc
THE PEOPLE, Plaintiff and Respondent,
v.
BENJAMIN RAMIREZ RUIZ, Defendant and Appellant.
The petition for review is denied.
The request for an order directing depublication of the opinion is denied.
CANTlL-SAKAUYE
Chief Justice
b. Court of Appeals opinion.
People v. Ramirez Ruiz
Court of Appeal of California,
First Appellate District, Division Two
October 27, 2020, Opinion Filed
A153135
12

Reporter
56 Cal. App. 5th 809 *; 2020 Cal. App. LEXIS 1011 **; 270 Cal. Rptr. 3d 702; 2020 WL 6326070
THE PEOPLE, Plaintiff and Respondent, v. BENJAMIN RAMIREZ RUIZ, Defendant and
Appellant.
Subsequent History: Time for Granting or Denying Review Extended People v. Ruiz, 2021
Cal. LEXIS 655 (Cal., Jan. 22, 2021)
Review denied by, Request denied by People v. Ruiz, 2021 Cal. LEXIS 1067 (Cal., Feb. 10, 2021)
Prior History:
Grandsaert.

[1] Superior Court of San Mateo County, No. 16SF011617, John L.

People v. Ramirez Ruiz, 51 Cal. App. 5th 369, 264 Cal. Rptr. 3d 909, 2020 Cal. App. LEXIS 582
(June 26, 2020)
Counsel: Law Offices of Beles & Beles, Robert J. Beles, Paul G. McCarthy and Joseph L. Ryan
for Defendant and Appellant.
Xavier Becerra, Attorney General, Gerald A. Engler, Chief Assistant Attorney General, Jeffrey
M. Laurence, Assistant Attorney General, Eric D. Share and Leif M. Dautch, Deputy Attorneys
General, for Plaintiff and Respondent.
Judges: Opinion by Stewart, J., with Kline, P. J., and Richman, J., concurring.
Opinion by: Stewart, J.
Opinion
STEWART, J. — Defendant Benjamin Ramirez Ruiz was convicted after a jury trial on three
counts of sex crimes he committed against his minor daughter (Minor) and sentenced to 44
years to life. On appeal, he challenges the trial court's admission into evidence of Minor's
incriminating out-of-court statements to a social worker as violating his confrontation clause
rights. He also challenges the trial court's rulings that the prosecution presented sufficient
evidence to satisfy the corpus delicti rule, which rule requires, when a defendant makes
extrajudicial incriminating statements, that there also be independent evidence of the corpus
delicti, meaning of the body of the crime itself, in order to convict. We affirm in part and [2]
reverse in part. We affirm the convictions on count 3 (continuous sexual abuse of a child under
14; Pen. Code, § 288.5) and count 5 (forcible rape of a child under 14; Pen. Code, § 261, subd.
(a)(1)). We reverse the conviction on count 2 (oral copulation or sexual penetration of a child
10 or younger; Pen. Code, § 288.7) only because we agree with defendant that the corpus delicti

13

rule was not satisfied regarding that count.1
BACKGROUND
In December 2016, the San Mateo County District Attorney filed an information charging
Ramirez Ruiz with sex crimes he allegedly committed
[*813]
against Minor. These were: sexual intercourse or sodomy with a child 10 years old or younger
(Pen. Code, § 288.7, subd. (a);1 count 1); oral copulation or sexual penetration with a child 10
years old or younger (§ 288.7, subd. (b); count 2); continuous sexual abuse of a child under 14
years old (§ 288.5, subd. (a); count 3); two counts of forcible rape of a child under 14 years old
(§ 261, subd. (a)(2); counts 4 and 5); five counts of forcible oral copulation of a minor under 14
years old (§ 288A, subd. (c)(2)(B); counts 6 through 10); and sexual penetration by foreign
object of a child under 14 years old (§ 289, subd. (a)(1)(B); count 11).
A jury trial followed. We summarize the evidence relevant to our resolution of Ramirez Ruiz's
appeal.
I.
Testimony of Minor's School Counselor
A counselor at a Redwood City school [3] where Minor was in sixth grade testified that Minor
was born in January 2005, and was a straight A student, and that Minor's mother (Mother)
volunteered often at the school. On September 20, 2016, Mother knocked on the counselor's
office door and, appearing “[s]haky and” “worried,” and with “a sense of urgency,” insisted
that she needed to see the counselor. After speaking with Mother,1 the counselor called for
Minor, who soon arrived and talked with the counselor. Minor became “very, very upset” when
the counselor said she would have to report what Minor had told her. Minor said repeatedly
that “she didn't want her father to go to jail, that she wanted her family to be together, but she
wanted it to stop.” She left the office “[t]earful; quiet; very, very upset.”
The counselor further testified that her relationship with Minor and her Mother changed over
time: “We would have really frequent interactions after this for many different reasons. And,
lately, there has been a definite shift. Mom isn't interacting with me. [Minor] doesn't seem
happy to see me anymore and seems uncomfortable around me.”

1

During the pendency of this appeal, this court ordered that the petition for a writ of habeas corpus also
filed by Ramirez Ruiz be considered with this appeal. We are issuing an order summarily denying that
petition concurrent with this opinion.
1

All statutory references are to the Penal Code unless otherwise stated.

1

The school counselor did not testify about what Mother said.

14

II.
Minor's Statements to a Social Worker
Dana Donnelly, a San Mateo County social worker, [4] testified that on the evening of
September 20, 2016, she conducted “a check” of Minor at Minor's
[*814]
home after a receiving a report that Minor had been sexually abused.1 Both parents were
present but, as we will discuss, Donnelly interviewed Minor privately in a bedroom with only
a coworker and a deputy sheriff present. In the interview, Minor was “calm and polite” and
“seemed relaxed” at first. Her demeanor changed, however, toward the end when she became
“visibly upset,” her voice “tremble[d] a little bit, and she started crying.” She rested her head
on Donnelly's shoulder with Donnelly's encouragement.
Unbeknownst to Donnelly, the deputy sheriff present recorded the interview. The recording
was played for the jury but is not contained in the record; however, two transcripts are, one
presented by the prosecution at trial and one presented by the defense to the court as part of
its motion for a new trial.1
Both transcripts indicate that Donnelly alone interviewed Minor for a relatively short period
of time (each is only five pages long). Donnelly first inquired about the language Minor
preferred to converse in (which was English), explained she was a social worker and asked
about Minor's [5] home life. She asked Minor if anything had happened that morning and
Minor said no. Donnelly then asked, “[H]as anyone ever touched you in a way that made you
feel uncomfortable?” Minor said, “Yes,” and indicated her father had touched her the previous
Friday. The prosecution's transcript states that Minor said her father had touched her “[i]n my
private part” with his “private part,” and Ramirez Ruiz's transcript indicates she only said her
father had touched her “[i]n my pants.” In both transcripts, Minor, when asked when was “the
first time” it happened, answered, “[l]ike, three months” before, and that “then” she told him
she was going to her Mother but he had threatened to hit her if she did. The prosecution's
transcript has Minor saying she and her Mother made a deal not to tell Ramirez Ruiz that
Donnelly and the others were coming to the house; the defense transcript has her saying she
and Ramirez Ruiz made a deal “that we weren't gonna tell or you guys would come.”
III.
Detective Lopez's Interrogation of Ramirez Ruiz

1

We discuss other aspects of Donnell's testimony in our discussion of Ramirez Ruiz's confrontation
clause claim post.
1

The jury was provided with the prosecution's transcript and was instructed that the recording, not the
transcript, was the evidence.

15

On September 21, 2016, the day after Donnelly's interview of Minor, Detective Lisandro Lopez
of the San Mateo County Sheriff's Office interrogated Ramirez Ruiz at [6] a county jail. A video
(which is not in the record) and
[*815]
an English-language transcript of the interrogation (which apparently occurred in Spanish)
were provided to the jury.
According to the transcript, Ramirez Ruiz, after receiving notice of his rights under Miranda
v. Arizona (1966) 384 U.S. 436 [16 L. Ed. 2d 694, 86 S. Ct. 1602], said he had been arrested the
previous day because of an outstanding warrant and the suspicion that he had “harassed”
Minor. He lived with his wife and Minor in a one-bedroom apartment and had a “normal”
relationship with Minor. After a recent change, his wife and Minor slept in the bedroom and
he slept in the living room, but they slept in the bedroom together sometimes. He worked some
small jobs but did not have steady job, and his wife worked from 8:00 a.m. until 2:00 p.m.
Ramirez Ruiz denied having sex with Minor. The three of them sometimes wrestled on the bed,
during which he may have accidentally grabbed Minor's breasts two or three times and perhaps
her vagina, and she might have grabbed his penis a couple of times. He was “hardly alone” with
Minor because he was the last one to wake up and the last one to get home most of the time.
However, one or two times he might have accidentally grabbed her breasts as they played
alone. He denied [7] touching Minor's breasts or vagina in the morning after his wife left for
work. He never had put his hands inside Minor's underwear or put his hands inside her bra.
He never had kissed her vagina or put his penis in it, and she had never sucked his penis.
Lopez testified that he then used a “rouse,”1 meaning a common police tactic in which the
interrogator said something that was not necessarily true to try to “elicit a response” and get
the subject to “open up and tell … what happened.” That is, the transcript of the interrogation
indicates that Lopez intimated, with no actual knowledge, that DNA collected from Minor had
been found to be Ramirez Ruiz's. In response, Ramirez Ruiz said he had the right to remain
silent, to which Lopez responded, “since you … don't want to provide your statement, we will
have to bring your daughter to court to explain everything,” and asked, “Would you … be
willing to have your daughter there in court explaining, testifying in front of everybody?” Upon
further questioning, Ramirez Ruiz said he did not think Minor was a liar and agreed that, as
Lopez put it, “things escalated and they started to be more and more.” He still denied
“penetrating” [8] Minor, but said, “I may have” tried. He said he had put his “hard” penis next
to Minor's vagina in an “explosion” of excitement two or three times. He could not recall the
first time he had done this. He had wanted to penetrate Minor only once, on a morning less
than a month ago. He said he was now telling the truth.
[*816]

1

The reporter's transcript refers to a “rouse,” which may have been meant by Lopez as a “ruse.”

16

Ramirez Ruiz did not recall anything happening the previous Friday. He thought that his wife
once went to shower, leaving him alone on the sofa with Minor, but he said he did not ejaculate.
Asked again about the previous Friday, he said he and Minor, who was dressed in shorts, were
on the sofa while his wife showered. He touched Minor on her “private part” but did not put
his finger inside her. Asked if he had “sucked … or licked [Minor's] vagina,” Ramirez Ruiz gave
a confusing answer, added that Minor “grew up very, too fast,” and said that she once “did
want to, she did grab my penis” and had grabbed his hand and put it close to her buttock,
which he had touched. He had touched her vagina, which he was surprised to find “was a
woman's vagina” “with a lot of hair” and “wet.” Minor's vagina “ended up being very small for”
him and he had an erection, but nothing else [9] occurred on that occasion. Ramirez Ruiz said
he had moved Minor's shorts to the side to see he vagina and that, “[h]onestly,” he had licked
it, but it is unclear if he meant he did so on that same occasion. Asked when he had licked
Minor's vagina, he said it was “one of the first times,” and thought it had occurred “[a] few
months ago.”
Ramirez Ruiz said he was “trying to tell the truth” and that, rather than being a good father,
“maybe, well, I'm one of the worst.” He had acted because of “stupidity,” and added, “I do know
that there's something that I can't, I can't control, I don't know. Well, … I don't want to say that
it can't be done… . It's something that is really hard for me to control.” He repeated that he had
“never penetrated” Minor or put his fingers inside of her vagina, but said he had touched it,
perhaps six months ago. Lopez said Minor said it had started the previous year and Ramirez
Ruiz said, “Ah, well, then it might be.” He agreed that he had kissed Minor's vagina “at the
beginning,” just one time. He also agreed with Lopez that it had occurred “last year” and
added, “And then after that, all that stopped.” When Lopez said that it had stopped “when
[Minor] went on Christmas [10] vacation,” Ramirez Ruiz said, “Well, yes, all that stopped for
a long time” and only started again when they played some “games” again.
Questioned further, Ramirez Ruiz said that Minor had tried to suck his penis once, but that
he had prevented it by getting up. He said it was “possible” that he had put his penis in her
mouth but he did not remember. He had touched her breasts under her bra and could have put
his penis next to her vagina one or two times. He asserted that there had been “just a few
times” when they had “passed the limit.”
Ramirez Ruiz said that on one occasion he had had “sex” with Minor. When Lopez said that
would include penetration, Ramirez Ruiz denied ever penetrating Minor or having sex with her
and said Lopez was trying to confuse him. When Lopez said, “Ok. So … I know that you've had
sexual
[*817]
relations with your daughter. But was it five times or was it only two?” Ramirez Ruiz
responded, “Well, it could have been, it could have been two or three times,” but then again
said he had never penetrated her. Lopez and Ramirez Ruiz argued about what it meant to have
sexual relations and what Ramirez Ruiz had said, during which Ramirez Ruiz maintained that
he had not [11] had sexual relations or sex with Minor.
17

IV.
Ramirez Ruiz's Trial Testimony
At trial, Ramirez Ruiz said he never had deliberately tried to touch Minor's breasts or vagina
or seen her vagina. He testified that he had lied in the interrogation to protect her from having
to be questioned in court. He suggested his DNA on Minor's bra came from the family's shared
laundry hamper.
V.
Forensic and Scientific Evidence
A family nurse practitioner testified that she conducted a SART1 examination of Minor on
September 21, 2016, the day after the Donnelly interview. She identified a “deep notch” in the
lower part of Minor's hymen, which was consistent with, but did not conclusively establish,
sexual abuse.
Evidence was presented of the scientific testing of swabs of Minor's vagina, her vestibular,
vulvar and anal areas, and of her bra. No sperm was found on the swabs of Minor's vagina or
vestibular, vulvar and anal areas. A stained area of the bra tested positive for acid phosphatase,
an enzyme found in high concentrations in semen and in low concentrations in other bodily
fluids. Semen was not detected in a microscope search of the stain. However further testing of
a cutting from this stain indicated a [12] “faint positive” for the protein component in seminal
fluid, in which semen travels, thereby confirming the presence of seminal fluid.
The cutting from the bra was further tested by a DNA specialist, who determined that the DNA
found on it was a mixture of at least two individuals, which could have included Minor's DNA,
and that the mixture included a small amount of male DNA. A swab from Minor's right breast
was also tested. It was found to have a mixture of DNA from at least two
[*818]
individuals that also could have included Minor's DNA, and included a possible low-level
amount of male DNA. There was no male DNA detected on the vaginal swabs. Another
specialist conducted further testing on the DNA found on the bra cutting and right breast
swab. A male profile matched to Ramirez Ruiz was determined for the DNA on the right breast
swab. Three male profiles were determined to exist for the DNA found on the bra cutting, and
Ramirez Ruiz was identified as the major contributor.
VI.

1

“SART” stands for sexual assault response team. (E.g., People v. Uribe (2011) 199 Cal.App.4th 836, 840
[132 Cal. Rptr. 3d 102].)

18

Other Evidence
The prosecution introduced Spanish-language recordings of jail calls between Ramirez Ruiz and
his brothers in which Ramirez Ruiz referred to “washing the stone” and discussed his brothers'
contacting [13] family members, although the parties disagree over which family members were
discussed. The prosecution contended these calls were evidence of Ramirez Ruiz's efforts to
discourage his wife and daughter from cooperating with authorities and testifying at trial. The
defense denied these contentions. Ramirez Ruiz's brother, Victor Ruiz, testified that Ramirez
Ruiz did not ask him to talk to Mother or Minor. Ramirez Ruiz testified that he did not tell his
brothers to ask Mother or Minor to change their accounts or refuse to testify.
Also, the prosecution presented the testimony of a Child Sexual Abuse Accommodation
Syndrome expert, who testified about the behaviors of child victims of sexual abuse.
VII.
Verdict, Sentencing and Appeal
After the close of evidence, the court dismissed eight of the 11 counts filed against Ramirez
Ruiz. The jury considered only whether to convict Ramirez Ruiz of one count each of oral
copulation or sexual penetration with a child 10 years old or younger (§ 288.7, subd. (b); count
2); continuous sexual abuse of a child under 14 years old (§ 288.5, subd. (a); count 3); and
forcible rape of a child under 14 years old on or about September 16, 2016 (§ 261, subd. (a)(2);
count 5). It convicted Ramirez Ruiz [14] of all three counts.
The court sentenced Ramirez Ruiz to 44 years to life in state prison. This consisted of 15 years
to life for count 2, an upper term of 16 years for count 3 and an upper term of 13 years for
count 5.
[*819]
Ramirez Ruiz filed a timely notice of appeal. His notice lists as the date of the order or
judgment appealed from the date the court both denied his motion for a new trial and
sentenced him, but also indicates in part 2(b) of the document that his appeal, rather than
being “after” “a jury or court trial” or “a contested violation of probation,” is “Other,” after
which is written, “denial of new trial motion.” He asserts he is appealing from his conviction,
and the People do not argue otherwise. Because Ramirez Ruiz may well have been merely
indicating in his notice of appeal that he was appealing after his motion for a new trial (the
term used in the other two subsections of section 2(b)), we liberally construe the notice as from
his convictions. (In re Joshua S. (2007) 41 Cal.4th 261, 272 [59 Cal. Rptr. 3d 460, 159 P.3d 49]
[“‘notices of appeal are to be liberally construed so as to protect the right of appeal if it is
reasonably clear what [the] appellant was trying to appeal from, and where the respondent
could not possibly have been misled or prejudiced’”].) Whatever the scope [15] of his notice, he
raised his confrontation clause and corpus delicti rule claims in his new trial motion.

19

DISCUSSION
We now address Ramirez Ruiz's appellate claims.
I.
Ramirez Ruiz's Confrontation Clause Claim
Ramirez Ruiz argues we must reverse his convictions because the trial court violated his
confrontation clause rights by admitting into evidence Minor's out-of-court statements to
Donnelly and, related to this, by denying his motions for a mistrial and a new trial, which he
based on this same violation. He contends the court violated his confrontation clause rights
because Minor's statements were testimonial, she was unavailable to testify at trial and was
never subject to cross-examination, and admission of her statements to Donnelly violated his
Sixth Amendment rights under Crawford v. Washington (2004) 541 U.S. 36 [158 L. Ed. 2d 177,
124 S. Ct. 1354] (Crawford) and its progeny. We conclude the trial court did not err because
Minor's out-of-court statements to Donnelly were not testimonial.
A. Additional Proceedings Below
1. Events on the Eve of Trial
Minor initially made out-of-court statements, including to San Mateo County social worker
Dana Donnelly, indicating that Ramirez Ruiz had committed certain sex acts with her.
According to a defense motion in limine
[*820]
regarding Minor's out-of-court statements, she later told a defense investigator that she had
[16] lied to police when she had said Ramirez Ruiz had molested her. On the eve of trial, after
an in-chambers discussion with Minor and counsel in which Minor said nothing had happened,
that her previous statements in a forensic interview were not true, that she did not want to
testify in front of people about her family issues and that no one was asking her not to testify,
the trial court found she was refusing to testify and ruled that she was unavailable to testify.
The court also ruled separately that Mother had a privilege not to testify.
The record does not contain a written motion by the defense to specifically exclude Minor's
statements to Donnelly,1 but the relevant hearing transcript indicates that defense counsel
moved to exclude it and the court reviewed a transcript of Minor's statements to Donnelly
(presumably the transcript that was admitted at trial) and a “police report” prior to the
hearing. At the hearing, the court commented that the reporting officer indicated the visit to
Minor's home was a welfare check. The court ruled that Minor's statements to Donnelly would
1

Ramirez Ruiz contends he sought to exclude Minor's statements to Donnelly in the defense motion in
limine on her out-of-court statements, but it does not refer to those statements.

20

be admitted under Evidence Code section 1360 as a statement describing child abuse made by
a child under the age of 12. These and the [17] statements to her school counselor that we have
summarized were the only out of court statements by Minor that were admitted into evidence
at trial.
2. Donnelly's and Piper's Testimony About Minor's Statements
Donnelly testified that she worked with “all sorts of clients, mainly mothers, and fathers, and
their children.” Asked what she did for work on a “day-to-day basis,” she replied, “So I have
to respond to emergency reports that we receive. I have to go out and investigate to see if child
abuse or neglect has occurred.” She further explained, “I typically meet with the child first, and
I complete what we call a comprehensive interview. I kind of gauge — get to know the child a
little bit and ask them specific questions. And, from there, after meeting with the child, I meet
with the parents. And, if needed, we safety plan … .”
Donnelly further testified that on the night of September 20, 2016, she conducted “a check”
of Minor after receiving a report that Minor had been sexually abused. She arrived at Minor's
home, a second-story apartment in Redwood City, California, at approximately 10:15 p.m.,
accompanied by a coworker serving as a Spanish translator, a sergeant from the sheriff's [18]
department and a sheriff's deputy, Judson Piper. They knocked on the home's
[*821]
door and Ramirez Ruiz opened it. Donnelly explained who she was, her role and that “we had
received a report.” She asked permission to enter the home and meet with Minor “to assess her
safety.” Ramirez Ruiz allowed entry, and Donnelly, her coworker and Deputy Piper went
inside, where they found Ramirez Ruiz's wife and Minor.
Donnelly received permission to speak to Minor privately. She introduced herself to Minor,
explained Minor was not in trouble and asked to see her room. Minor took Donnelly, the
coworker and Deputy Piper to her bedroom. Donnelly, with Minor's permission, sat on the left
side of the bed with Minor, the coworker sat on the right side and Deputy Piper stood “closer
to the door.” Minor's coworker did not participate in the interview after Minor indicated she
would prefer to talk in English and Deputy Piper did not ask questions. Donnelly said she
interviewed Minor “[t]o assess her safety and to determine whether she was currently safe or
not,” and that she thought there “[a]bsolutely” was a safety risk to Minor at that time. She had
no idea the interview [19] was being recorded.
Deputy Piper testified that he recorded Donnelly's interview of Minor with a digital recorder
he kept in his pocket, which began recording when Ramirez Ruiz opened the apartment door.
Asked why he recorded, he said, “Just to record the welfare check itself, because I wasn't sure
what was going to come of it … .” Asked to explain further, he said, “In case something came
of it because welfare checks sometimes turn into something else,” and agreed that an example
would be a “court case.” He said he did not tell anyone, and did not believe Minor knew, that
he was recording.
21

3. Ramirez Ruiz's Motion for a Mistrial
After Donnelly and Piper testified, Ramirez Ruiz's counsel moved for a mistrial, arguing that
Piper's reason for recording included because “these things sometimes get into something
further,” “such as prosecution.” Defense counsel contended Piper's intent made Minor's
statements testamentary, renewed an objection to the admission of Minor's recorded
statements to Donnelly and moved for a mistrial. The court overruled the objection and denied
the motion, stating, “There were a number of factors that went into my findings that it was not
testimonial. That [20] is relevant to one of those factors, but there are so many other factors
that make it clear to me that it is not that my ruling will stand on that.”
4. Ramirez Ruiz's Motion for New Trial
After trial and before sentencing, Ramirez Ruiz filed a motion for a new trial, in part on the
ground that the court's admission into evidence of
[*822]
Minor's recorded statements to Donnelly violated Crawford and its progeny (he also moved for
a new trial based on the corpus delicti doctrine, which we discuss post). Ramirez Ruiz
submitted to the court a transcript of Minor's statements prepared by defense counsel that
differed with the transcript submitted to the jury, which differences we have already discussed.
In his supporting brief, he contended that another talk with Minor was conducted by Deputy
Piper, with Donnelly helping, after Donnelly interviewed Minor and talked to Mother. Ramirez
Ruiz stated, “Piper instructed Donnelly to ‘ask [Minor] if she has any of the clothing that she
was wearing … and if it's been washed or not, and if not, ask where is it, so we can collect it.’
Donnelly then asked [Minor] about clothing. [Minor] said that she was wearing a pink shirt and
blue shorts but that they [21] had washed them already. Donnelly asked Piper if he still wanted
the clothes if they had been washed. Piper replied ‘no.’ Donnelly asked [Minor] what part of
the living room the incident had taken place and [Minor] said the couch. Piper then took over
the interview and asked [Minor] which part of the couch the incident occurred, and [Minor]
identified the corresponding [part] of the couch. Donnelly then explained to [Minor] that they
were going to take her to the hospital for an examination. Piper then instructed Donnelly to
ask [Minor] whether defendant was clothed during the incident. In response to Donnelly's
questioning, [Minor] replied that she and defendant were clothed, that defendant had his
‘private area’ outside of his clothes, and that defendant took off her shorts while she was sitting
on the couch. Piper directly asked some of the questions as well.”
After hearing oral argument, the court denied Ramirez Ruiz's motion for a new trial. It stated,
“[W]e did exhaustively litigate this matter during the course of the trial. I made findings at the
time that I still believe are accurate. I believe that things like the recording being on is
certainly not determinative. Recordings [22] are used in all different types of cases now … . [¶]
I think the questions that were asked by [Donnelly] were non-testimonial. I think she was
asking questions to determine the level of danger. This was to a child. This was in a home. This
was not a law enforcement officer asking the questions. [¶] My conclusion at the time that I
22

admitted this evidence was that it was non-testimonial. That is still my conclusion.” The court
added that the recording of Minor's statements, not any transcript, was the evidence and that
the defense transcript did “not reflect the defendant's interpretation of the language used in
answer to the questions by [Donnelly].”
B. Legal Standards
(1) In Crawford, the United States Supreme Court held that the admission into evidence at
trial of an otherwise admissible “testimonial” hearsay statement of a declarant who is
unavailable to testify violates the confrontation clause of the federal Constitution unless the
defendant has had a prior
[*823]
opportunity to cross-examine the declarant. (Crawford, supra, 541 U.S. at pp. 59, 68.) The
Crawford court declined to give a comprehensive definition of “testimonial,” stating only that
it “applies at a minimum to prior testimony at a preliminary hearing, before a grand jury, or
at a former trial; and to police interrogations.” [23] (Id. at p. 68.)
The Supreme Court revisited what was “testimonial” in Davis v. Washington (2006) 547 U.S.
813 [165 L. Ed. 2d 224, 126 S. Ct. 2266] (Davis), which addressed two cases, Davis v.
Washington and Hammon v. Indiana. The court differentiated between statements made to
respond to an ongoing emergency and statements made to establish or prove past events
relevant to a later criminal prosecution (Davis, at p. 822); among other things, it considered
the formality of the circumstances, or lack thereof, to be “essential.” (Id. at p. 830, fn. 5.)
Regarding Davis v. Washington, the court held that a recording of an alleged domestic violence
victim's 911 call, in which she reported events as they were actually happening, was
nontestimonial because she faced an “ongoing emergency” at the time and her “frantic” call
“in an environment that was not tranquil” was “plainly … for help against a bona fide physical
threat.” (Davis, supra, 547 U.S. at p. 827.) The 911 operator's questioning “elicited statements
[that] were necessary to be able to resolve the present emergency,” including learning the
identity of the suspect, “so that the dispatched officers might know whether they would be
encountering a violent felon.” (Ibid.) Under these circumstances, the declarant “simply was not
acting as a witness; she was not testifying.” (Id. at p. 828.)
As for [24] Hammon v. Indiana, the court held that an alleged domestic violence victim's
statements to a police officer in her living room while a second officer confined the suspect in
the kitchen were testimonial. The court noted that the officers had responded to a domestic
disturbance report to find the alleged victim alone on her front porch, where she told them
nothing was wrong. (Davis, supra, 547 U.S. at p. 819.) During the subsequent interview in her
living room, she said the suspect had physically abused her, and the interviewing officer had
her fill out and sign a battery affidavit. (Id. at p. 820.) In holding that the alleged victim's oral
and written statements were testimonial, the court noted she made them when “there was no
immediate threat to her person,” and that the questioning officer was not seeking to determine
23

“‘what is happening,’” but rather “‘what happened.’” (Id. at p. 830.) The court considered the
declarant's statements were “formal enough” because she and the suspect were physically
separated, the police questioned the declarant about past events and the interview “took place
some time after the events described were over.” (Id. at p. 830.)
[*824]
The Supreme Court further clarified what constituted “testimonial” statements in subsequent
cases. [25] In Michigan v. Bryant (2011) 562 U.S. 344 [179 L. Ed. 2d 93, 131 S. Ct. 1143], police
responding to a report of a shooting found a man shot in the abdomen lying on the ground by
his car in a gas station parking lot around 3:25 a.m., in great pain and able to speak only with
difficulty. (Id. at p. 349.) The officers asked him what had happened, who had shot him, and
where the shooting had occurred. (Ibid.) The victim answered their questions in a conversation
that ended in five to 10 minutes when medical services arrived. (Ibid.) He died within hours.
(Ibid.) The court concluded his statements were not testimonial because he made them during
an ongoing emergency, speaking “within the first few minutes of the police officers' arrival and
well before they secured the scene of the shooting — the shooter's last known location.” (Id.
at p. 374.) Furthermore, the shooter's whereabouts and motive were unknown and, thus, the
officers had “no reason to think that the shooter would not shoot again if he arrived on the
scene” (id. at p. 377), and the victim's physical distress suggested he did not give his statement
with the primary purpose of establishing or proving past events potentially relevant to later
criminal prosecution (id. at p. 375). Also, “the questioning … occurred in an exposed, public
area, prior to the [26] arrival of emergency medical services, and in a disorganized fashion” (id.
at p. 366), and the questions the officers asked “were the exact type of questions necessary to
allow the police ‘“to assess the situation, the threat to their own safety, and possible danger to
the potential victim”’ and to the public” (id. at p. 376).
In Ohio v. Clark (2015) 576 U.S. 237 [192 L. Ed. 2d 306, 135 S. Ct. 2173] (Clark), the Supreme
Court held that statements by a three-year-old child to his preschool teachers identifying the
defendant as his abuser were not testimonial because the primary purpose of these discussions
was to determine if it was safe to return the child to his guardian. (Id. at pp. 246–247.) The
court instructed that whether or not a statement is made to quell an immediate emergency is
relevant, but not necessarily determinative; rather, the focus should be on whether the
statement's “primary purpose” is testimonial. (Id. at pp. 244–246.) It concluded the child's
statements, occurring “in the context of an ongoing emergency involving suspected child
abuse,” and to teachers, not officers, “clearly were not made with the primary purposes of
creating evidence for [the defendant's] prosecution.” (Id. at p. 246.) “On the contrary, it is clear
that the first objective was to protect” the child, and “the conversation … was informal [27]
and spontaneous. The teachers asked [the child] about his injuries immediately upon
discovering them, in the informal setting of a preschool lunchroom and classroom … .” (Id. at
p. 247.)
(2) The California Supreme Court, based on Crawford and related cases, has given guidance
to our courts regarding how to determine whether a statement is testimonial. When police are
involved, the court has instructed
24

[*825]
that we must evaluate the circumstances and the statements and actions of the parties to
determine “the primary purpose of both officer and declarant” based objectively on “‘the
purpose that reasonable participants would have had.’” (People v. Blacksher (2011) 52 Cal.4th
769, 813–814 [130 Cal. Rptr. 3d 191, 259 P.3d 370] (Blacksher).) Furthermore, we “should
consider whether an ‘“ongoing emergency”’ exists, or appears to exist, when the statement was
made,” even “if hindsight reveals that an emergency did not, in fact, exist.” (Id. at p. 814.)
“Whether an ongoing emergency exists is a ‘highly context-dependent inquiry’” that may take
into account whether the victim, first responders, or the public remain at risk. (Ibid.) Also,
“regardless of the existence of an emergency, the informality of the statement and the
circumstances of its acquisition are important considerations.” (Id. at p. 815; see also People
v. Sanchez (2016) 63 Cal.4th 665, 689 [204 Cal. Rptr. 3d 102, 374 P.3d 320] [“[t]estimonial [28]
statements are those made primarily to memorialize facts relating to past criminal activity,
which could be used like trial testimony” while nontestimonial statements “are those whose
primary purpose is to deal with an ongoing emergency or some other purpose unrelated to
preserving facts for later use at trial”].)
Where, as here, the defendant made contemporaneous objections during trial, the prosecution,
“as the proponent of the evidence, … had the burden to show the challenged testimony did not
relate testimonial hearsay.” (People v. Ochoa (2017) 7 Cal.App.5th 575, 584 [212 Cal. Rptr. 3d
703], citing U.S. v. Jackson (5th Cir. 2011) 636 F.3d 687, 695 [“the government bears the
burden of defeating [defendant's] properly raised Confrontation Clause objection by
establishing that its evidence is nontestimonial”].)
(3) On appeal, we independently review whether a statement was testimonial, implicating the
constitutional right of confrontation. (People v. Nelson (2010) 190 Cal.App.4th 1453, 1466 [119
Cal. Rptr. 3d 56].) (4) We review a court's ruling on a motion for a new trial “under a
deferential abuse of discretion standard,” which, regarding a constitutional claim, means “the
asserted abuse of discretion is the asserted failure of the trial court to recognize violations of
defendant's constitutional rights.” (People v. Hoyos (2007) 41 Cal.4th 872, 917, fn. 27 [63 Cal.
Rptr. 3d 1, 162 P.3d 528], overruled in part on another ground in People v. Black (2014) 58
Cal.4th 912, 919–920 [169 Cal. Rptr. 3d 363, 320 P.3d 800].)
C. Analysis
(5) We conclude that the trial court [29] did not violate Ramirez Ruiz's confrontation clause
rights by admitting Minor's statements to Donnelly because, as in Clark, Donnelly's primary
purpose in interviewing Minor was to assess the child's safety and Minor's primary purpose in
responding was to stop the abuse she was experiencing.
[*826]
Donnelly was a social worker, not a law enforcement officer or trained forensic interviewer, and
her daily responsibilities included responding to emergencies to assess the safety of possible
25

victims of abuse. In her unchallenged testimony, she said she visited Minor's home late in the
evening on the day she received a report of possible abuse, and that she did so to assess Minor's
safety. Donnelly explained to Minor at the beginning of the interview that her purpose was to
assess Minor's safety. Minor had earlier in the day told her school counselor that she wanted
“it” to stop and that she did not want her father to go to jail. Considered objectively, her
statements that day, including to Donnelly were consistent with her desire for safety and
inconsistent with a purpose of providing evidence to prosecute her father.
Furthermore, the interview was informal and brief, consistent with a welfare check and not
with a [30] criminal investigation. Donnelly talked with Minor while sitting on her bed with
her, asked a few questions about possible abuse, did not ask about or probe for information
regarding all the abuse Minor might have suffered and comforted Minor when she became
upset. Donnelly ended the interview as soon as Minor told her about continued abuse (Minor's
indication that Ramirez Ruiz had repeatedly raped her), saying, “I think we have enough.”
Under the circumstances, Donnelly's statement did not mean she was there to pursue a
criminal prosecution, as Ramirez Ruiz implies. Rather, interpreted in the context of this very
brief interchange, the statement can only reasonably be understood as indicating they had
enough to conclude that Minor was not in a safe situation.
Further indicating the purpose of Donnelly's interview was to assess Minor's safety was the fact
that only she asked questions of Minor in that part of the interview. The law enforcement
officer present, Deputy Piper, did not play any active role at that point, and his placement
nearer to the bedroom door indicates his role was to protect Donnelly and Minor as they talked.
As the Supreme Court observed in Clark regarding teachers' [31] inquiries to a possibly abused
child, “This was nothing like the formalized station-house questioning in Crawford or the
police interrogation and battery affidavit in Hammon.” (Clark, supra, 576 U.S. at p. 247.) As
in Clark, this evidence indicates that Donnelly was responding as soon as possible to a situation
in which Minor was at risk of continued sexual abuse. A further indication that Donnelly's
interview of Minor was not in preparation for a criminal prosecution is that Minor was
interviewed the next day by a forensic interviewer (her statements to that interviewer were not
admitted into evidence).
We are troubled by the fact that Deputy Piper recorded Donnelly's interview of Minor and we
do not condone such conduct on the part of law enforcement officials accompanying child
welfare workers on a welfare

[*827]
check. Recording an interview tends to indicate the interview has a testimonial purpose and,
in many circumstances, will result in exclusion of the recorded statements. If the social worker
had understood in advance that the deputy planned to record the interview or even had she
been aware he was recording while she was interviewing the Minor, the outcome might be
different. If the circumstances otherwise indicate [32] an implicit agreement between child
26

welfare workers and law enforcement officials to conduct an interview for dual purposes,
admission of such an interview would implicate a defendant's Sixth Amendment rights.
Under the specific facts presented here, however, Deputy Piper's surreptitious recording does
not change our objective determination of the primary purpose of Donnelly's initial and brief
interview of Minor and Minor's participation in it. Our Supreme Court has instructed that we
consider the primary purposes of the questioner and the alleged victim in evaluating the
purpose of their statements. (Blacksher, supra, 52 Cal.4th at pp. 813–814.) The possibly
different purpose of another witness is, to be sure a part of the context in which we must
evaluate whether the statements are testimonial. Here, the officer's recording of the interview
does not tip the balance to render Minor's statements testimonial. We so conclude because the
other evidence shows that the questioner, Donnelly, and the Minor were engaged in an
interview for purposes that did not involve creating a record for any kind of trial and that they
were unaware of the recording. As far as they knew, Piper was simply standing near the door
so they could safely engage in a private [33] conversation. Piper's presence, which in context
reasonably would have been understood as ensuring the safety and security of the social worker
and the Minor, did not convert Donnelly's brief interview of the Minor into a criminal
investigation.
Ramirez Ruiz contends that Donnelly's interview was more like the home interview discussed
in the Hammon part of Davis, which the Supreme Court held was testimonial. We disagree.
There, police only interviewed the victim after she told them there was nothing wrong as she
sat alone on her porch, which could be reasonably viewed as indicating there was no ongoing
emergency. Furthermore, although the interview occurred in her home with the defendant
present, it was conducted by law enforcement officers who had her complete and sign a battery
affidavit. These factual circumstances matter greatly; the Davis court emphasized that its
holding regarding Hammon did not establish a blanket rule regarding statements to police
called to investigate a potential crime scene. (Davis, supra, 547 U.S. at p. 832.) Indeed, the
court noted, “exigencies,” such as officers' “‘need to know whom they are dealing with in order
to assess the situation, the threat to their own safety, and possible danger [34] to the potential
victim’” “may often mean that ‘initial inquiries’ produce nontestimonial statements.” (Ibid.)
Such exigencies existed when Donnelly interviewed Minor.
[*828]
Ramirez Ruiz also relies on People v. Sisavath (2004) 118 Cal.App.4th 1396 [13 Cal. Rptr. 3d
753] to argue that Minor's statements to Donnelly were testimonial. There, the appellate court
held it was reasonable to conclude that the alleged victim's statements to a “‘forensic interview
specialist’” would be available for use in a criminal prosecution. (Id. at p. 1402.) The case is not
on point. It involved an interview similar to the forensic interview of Minor conducted at the
Keller Center the day after Minor spoke with Donnelly, not the kind of initial safety-related
interview at issue here.
In short, here, a nighttime welfare check of a Minor in the custody of a father who, it was
reported earlier that day, could be sexually abusing her, conducted by a social worker charged
27

with responding to emergency reports to assess potential victims' safety, is a much different
circumstance than those discussed in the cases cited by Ramirez Ruiz. There are no objective
indications in the record that Donnelly was conducting an investigation for a potential criminal
prosecution or that Minor spoke to Donnelly with [35] that purpose in mind. The court did not
err by admitting Minor's recorded statements and denying Ramirez Ruiz's motion for a
mistrial.
(6) Ramirez Ruiz's motion for a new trial was similarly unpersuasive. Although his counsel
contended in a supporting brief that Deputy Piper took the lead in a second interview with
Minor some minutes after the Donnelly interview, counsel did not present evidence of that
later interview, so the contention added nothing to the argument. (In re Zeth S. (2003) 31
Cal.4th 396, 413, fn. 11 [2 Cal. Rptr. 3d 683, 73 P.3d 541] [stating, “the unsworn statements
of counsel are not evidence” regarding facts asserted in a brief].) Regardless, that Donnelly's
interview might have led to further questioning by Deputy Piper after Donnelly had concluded
she had enough information to evaluate whether Minor was safe does not alter our conclusion.
“A nontestimonial encounter addressing an emergency may evolve, converting subsequent
statements into testimonial ones.” (Blacksher, supra, 52 Cal.4th at p. 814; see also People v.
Saracoglu (2007) 152 Cal.App.4th 1584, 1593 [62 Cal. Rptr. 3d 418] [“‘a conversation which
begins as an interrogation to determine the need for emergency assistance [can] “evolve into
testimonial statements”’”], quoting Davis, supra, 547 U.S. at p. 828.) The trial court did not
abuse its discretion in denying the part of Ramirez Ruiz's motion for a new trial that was based
on [36] Crawford.1
[*829]
II.
Ramirez Ruiz's Corpus Delicti Claim
(7) “In every criminal trial, the prosecution must prove the corpus delicti, or the body of the
crime itself — i.e., the fact of injury, loss, or harm, and the existence of a criminal agency as
its cause. In California, it has traditionally been held, the prosecution cannot satisfy this
burden by relying exclusively upon the extrajudicial statements, confessions, or admissions of
the defendant”; “some independent proof of the corpus delicti” is required. (People v. Alvarez
(2002) 27 Cal.4th 1161, 1168–1169 [119 Cal. Rptr. 2d 903, 46 P.3d 372] (Alvarez).) Ramirez
Ruiz argues that, even if Minor's statements to Donnelly were properly admitted, there was
insufficient evidence of the corpus delicti to support any of his convictions and that the court's
arbitrary disregard of the corpus delicti requirement violated his due process rights under the
federal Constitution. We disagree that there was insufficient independent evidence to support
his convictions on counts 3 and 5 for continuous sexual abuse and forcible rape, respectively,
of a minor under 14 years old (§§ 288.5, subd. (a), 261, subd. (a)(2)). However, we agree there
was insufficient independent evidence to support his conviction on count 2, for oral copulation
1

Having concluded that Ramirez Ruiz's claims are meritless, we do not address the parties' arguments
regarding whether any error was prejudicial.

28

or sexual intercourse with a child 10 years old [37] or younger (§ 288.7, subd. (a)). We therefore
reverse the latter conviction.
A. Additional Proceedings Below
Near the end of the trial, Ramirez Ruiz filed a motion for judgment of acquittal under section
1118.1 10 regarding counts 1 and 2, which the prosecution opposed. After the parties finished
presenting evidence, defense counsel orally moved in chambers for the dismissal of all counts.
The court indicated it was going to dismiss all but counts 2, 3 and 5. Thereafter, in open court,
outside the presence of the jury, defense counsel argued there was no proof of the corpus delicti
independent of Ramirez Ruiz's statements to Detective Lopez regarding count 2. The
prosecution argued there was sufficient evidence.
The trial court denied the motion regarding count 2. It stated, “We certainly did discuss this
at length and in chambers. Based on the case cited by counsel as well as other cases that were
before the court, in this context of sexual assault, corpus is broadly defined in terms of the
physical act. And all elements of … a crime do not have to be shown in the evidence apart from
[*830]
defendant's confession. [¶] So I am finding corpus sufficient. I did not find corpus sufficient for
count 1. But I did find corpus [38] sufficient for count 2.”
In his closing argument, defense counsel argued the jury should acquit Ramirez Ruiz for lack
of evidence independent of Ramirez Ruiz's own statements that supported certain elements of
the charged offenses. On rebuttal, the prosecutor contended there was additional evidence,
such as Minor's recorded statement to Donnelly, the medical exam showing a deep notch in
Minor's hymen consistent with sexual abuse, and the evidence of Ramirez Ruiz's seminal fluid
on Minor's bra and his DNA on a swab of Minor's breast.
The trial court instructed the jury with CALCRIM No. 359, which states in relevant part, “The
defendant may not be convicted of any crime based on his out-of-court statements alone. You
may rely on the defendant's out-of-court statements to convict him only if you first conclude
that other evidence shows that the charged crime or a lesser included offense was committed.
[¶] That other evidence may be slight and need only be enough to support a reasonable
inference that a crime was committed. [¶] This requirement of other evidence does not apply
to proving the identity of the person who committed the crime. If other evidence shows that
the charged crime or a lesser included [39] offense was committed, the identity of the person
who committed it may be proved by the defendant's statements alone.”

10

Section 1118.1 states in relevant part, “In a case tried before a jury, the court on motion of the
defendant … , at the close of the evidence on either side … shall order the entry of a judgment of
acquittal of one or more of the offenses charged … if the evidence then before the court is insufficient
to sustain a conviction of such offense or offenses on appeal.”

29

Ramirez Ruiz raised his corpus delicti claims again in his motion for new trial (in addition to
his Crawford claim). After hearing argument, the trial court again rejected these claims,
finding “sufficient, independent evidence of corpus to support each of the offenses.”
B. Legal Standards
As we have discussed, “the prosecution must prove the corpus delicti, or the body of the crime
itself — i.e., the fact of injury, loss, or harm, and the existence of a criminal agency as its
cause,” and “cannot satisfy this burden by relying exclusively upon the extrajudicial
statements, confessions, or admissions of the defendant”; “some independent proof of the
corpus delicti” is required. (Alvarez, supra, 27 Cal.4th at pp. 1168–1169.) Although the part of
the common law corpus delicti rule excluding unsupported extrajudicial statements from
evidence was abrogated by article I, section 28, subdivision (d) of the California Constitution,
the part requiring some independent proof of the corpus delicti to convict a defendant who
makes an incriminating statement remains in force “to ensure that one will not be falsely
convicted, by his or her untested words alone, of a crime that never happened.” [40] (Alvarez,
at pp. 1165, 1169.) In other words, as a result of this partial abrogation, the
[*831]
evidence of unsupported extrajudicial statements is now admissible, but conviction still
requires independent proof of the corpus delicti.
(8) As reflected in CALCRIM No. 359, “‘“[a] slight or prima facie showing, permitting the
reasonable inference that a crime was committed, is sufficient”’” to satisfy the corpus delicti
rule. (People v. Gutierrez (2002) 28 Cal.4th 1083, 1127–1128 [124 Cal. Rptr. 2d 373, 52 P.3d
572].) “The independent proof may be circumstantial and need not be beyond a reasonable
doubt, but is sufficient if it permits an inference of criminal conduct, even if a noncriminal
explanation is also plausible. [Citations.] There is no requirement of independent evidence ‘of
every physical act constituting an element of an offense,’ so long as there is some slight or
prima facie showing of injury, loss, or harm by a criminal agency.” (Alvarez, supra, 27 Cal.4th
at p. 1171; see also People v. Sanchez (2016) 246 Cal.App.4th 167 [200 Cal. Rptr. 3d 546]
[circumstantial evidence of criminal activity satisfies the corpus delicti rule].)
(9) We review the evidence to determine if this “‘slight or prima facie standard“ has been met.
(People v. Jennings (1991) 53 Cal.3d 334, 368 [279 Cal. Rptr. 780, 807 P.2d 1009] (Jennings).)
(10) As we have discussed, we generally review the court's ruling on a motion for a new trial
under a deferential abuse of discretion standard, but we independently review for legal error.
( [41] Aguilar v. Atlantic Richfield Co. (2001) 25 Cal.4th 826, 859–860 [107 Cal. Rptr. 2d 841,
24 P.3d 493].)
C. Analysis
We agree with the People that there was sufficient evidence of the corpus delicti to convict
Ramirez Ruiz of counts 3 and 5.
30

Regarding count 3, continuous sexual abuse of a minor under 14 years old, section 288.5,
subdivision (a) states, “Any person who … resides in the same home with the minor child …
, who over a period of time, not less than three months in duration, engages in three or more
acts of substantial sexual conduct with a child under the age of 14 years at the time of the
commission of the offense, as defined in subdivision (b) of Section 1203.066, or three or more
acts of lewd or lascivious conduct, as defined in Section 288, with a child under the age of 14
years at the time of the commission of the offense is guilty of the offense of continuous sexual
abuse of a child … .”
Regarding count 5, forcible rape of a child under 14 years old on or about September 16, 2016,
section 261, subdivision (a)(2) defines rape as “an act of sexual intercourse accomplished with
a person not the spouse of the perpetrator … [¶] … [¶] … against a person's will by means of
force, violence, duress, menace, or fear of immediate and unlawful bodily injury on the person
of another.”
[*832]
According to the evidence presented to the jury, Minor, who was 11 years old at all relevant
times, told [42] Donnelly that Ramirez Ruiz had put his “private part” in her “private part”
the previous Friday and, when asked when was the first time it happened, answered, “[l]ike,
three months” before, and that “then” she told him she was going to her Mother but he had
threatened to hit her if she did. Furthermore, a medical examination found a “deep notch” in
Minor's hymen, the presence of which was consistent with sexual abuse, even though this notch
did not establish conclusively that sexual abuse had occurred. Also, Ramirez Ruiz's seminal
fluid was found on Minor's bra. This evidence was sufficient to establish the corpus delicti
regarding both counts 3 and 5. Certainly, it was evidence that Ramirez Ruiz had forcibly raped
Minor the previous Friday under threat of physically harming her, satisfying the requirements
of count 5. The evidence was not as clear regarding count 3 because Minor specifically referred
to only two incidents of abuse in her statements to Donnelly, not the three required by section
288.5, subdivision (a). However, as the People point out, two California Supreme Court cases
show how slight the evidence may be and still satisfy the corpus delicti rule.
(11) In People v. Jones (1998) 17 Cal.4th 279 [70 Cal. Rptr. 2d 793, 949 P.2d 890], the court
considered whether there was [43] corpus delicti evidence that supported an oral copulation
charge. (Id. at p. 302.) The victim was found dying from a gunshot wound to the head. (Ibid.)
Medical experts “found bruises on her thighs, knees, legs, and perineal area,” injuries on her
hands, and semen inside her vagina, on her external genitalia, and in her rectal area. (Ibid.)
“No trace of semen was found in [the victim's] mouth; an expert testified, however, that
negative test results were not inconsistent with oral copulation because the mouth's natural
rinsing processes eliminate semen.” (Ibid.) Also, the victim was not wearing underpants or a
brassiere, which she customarily wore. (Ibid.) Our Supreme Court rejected the defendant's
claim that there was insufficient corpus delicti evidence because the corpus delicti rule does not
require “independent evidence of every physical act constituting an element of an offense …
. Instead, there need only be independent evidence establishing a slight or prima facie showing
of some injury, loss or harm, and that a criminal agency was involved.” (Id. at p. 303.)In
31

Jennings, supra, 53 Cal.3d 334, our Supreme Court rejected the defendant's argument that the
prosecution had failed to establish the corpus delicti of rape although “the [44] evidence of rape
was not strong.” (Id. at p. 367.) No seminal fluids were found on the victim's body, no evidence
of penetration existed, and there was “no evidence that the victim's clothes were arranged in
such a manner as to suggest a sexual assault.” (Ibid.) Nonetheless, the court held the corpus
delicti of rape was established based on evidence that the victim's body was found unclothed
in a remote site with a broken jaw. (Id. at pp. 367–368.) The court reasoned that the location
and
[*833]
condition of the body gave rise to an inference “that some sexual activity occurred” and
“whatever sexual activity occurred, it occurred against the victim's will.” (Ibid.)
Based on these cases, we conclude it can be reasonably inferred from evidence independent of
his confession that Ramirez Ruiz had committed at least three acts of sexual abuse, as defined
under section 288.5, subdivision (a), in the previous three months. Specifically, Minor's
statements that Ramirez Ruiz had penetrated her private part with his own the previous
Friday and had first done so three months earlier, coupled with the evidence of seminal fluid
and semen found on Minor and her clothing, some of which could be identified as that of
Ramirez Ruiz, is sufficient evidence of the corpus [45] delicti of the crime of continuous sexual
abuse of a child under 14. Therefore, the court did not err in denying the motion to dismiss or
the new trial motion in regard to count 3 and count 5.
However, we agree with Ramirez Ruiz that there was insufficient corpus delicti evidence to
support count 2, which alleged that Ramirez Ruiz had engaged in oral copulation or sexual
penetration with a child 10 years old or younger in violation of section 288.7, subdivision (b).
Minor turned 11 in January 2016. In September 2016, she told Donnelly her father had first
penetrated her private part with his own “[l]ike, three months” before, meaning sometime
around June 20, 2016. This date was almost five months after her 11th birthday. Neither
Minor's testimony nor any other evidence independent of Ramirez Ruiz's confession indicates
that Ramirez Ruiz engaged in any sex act with Minor before her 11th birthday. The only
evidence that he did so consisted of his own statements to Detective Lopez indicating that he
had kissed Minor's vagina “at the beginning,” just one time, and agreed with Lopez that it had
occurred “last year” and stopped “when [Minor] went on Christmas vacation.”
Although, as we have discussed, corpus delicti [46] evidence can be quite slight, we think it a
bridge too far to hold that corpus delicti evidence of sexual abuse identified by the victim as
beginning around a particular time supports the inference that a sexual assault of a different
kind occurred more than five months earlier. None of the cases cited by the People support
such a holding. (See People v. Jones, supra, 17 Cal.4th 279; Jennings, supra, 53 Cal.3d 334;
People v. Tompkins (2010) 185 Cal.App.4th 1253, 1260 [110 Cal. Rptr. 3d 918] [“separate
evidence is not required as to each individual count to establish the corpus delicti”]; People v.
Culton (1992) 11 Cal.App.4th 363, 372–373 [14 Cal. Rptr. 2d 189] [pediatrician's testimony
regarding abnormalities consistent with sexual abuse sufficient to support 10 lewd act
32

charges].) We conclude that we must reverse count 2 for failure of the prosecution to present
any evidence of the corpus delicti. The trial court erred
[*834]
when it concluded otherwise and abused its discretion when it denied Ramirez Ruiz's motion
for a new trial on this issue.
DISPOSITION
The rulings appealed from are affirmed, except that we reverse Ramirez Ruiz's conviction for
count 2, for oral copulation or sexual intercourse with a child 10 years old or younger (§ 288.7,
subd. (a)). We remand with instructions to the trial court to prepare an amended abstract of
judgment and send a copy of it to the Department of Corrections and Rehabilitation. [47]
Kline, P. J., and Richman, J., concurred.
End of Document

33

